Fish & Richardson P.C.
12390 El Camino Real
San Diego, CA 92130
858 678 5070 main
858 678 5099 fax
Jonathan E. Singer
Principal
singer@fr.com
858 678 5634 direct

October 14, 2019
Via ECF
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

No. 19-430, Athena Diagnostics, Inc., et al. v. Mayo Collaborative Services, LLC, et al.

Dear Mr. Harris:
I am counsel of record for Respondents in the above-captioned case, in which the Petition for
a writ of certiorari was docketed on October 1, 2019, and a response to the Petition is currently due
on November 1, 2019. Pursuant to Supreme Court Rule 30.4, Respondents respectfully request a 21day extension of time, to and including November 22, 2019, within which to file a response to the
Petition.
We request this extension to permit us sufficient time to consider anticipated amicus briefs
before responding, and to accommodate the pre-existing scheduling conflicts of counsel. To date,
we have been notified that at least two amicus briefs will be filed in support of the Petition. In
addition, one of my colleagues who has worked on all phases of this case will be in trial in the
United States District Court for the Eastern District of Virginia (Norfolk Division) from October 16,
2019 through October 31, 2019. Given these conflicts, we respectfully request this extension to
allow us sufficient time to respond to the Petition.
Thank you for your attention to this matter.
Very truly yours,

Jonathan E. Singer
cc: Counsel of Record

